OIG Audit Report GR-30-08-003

Use of Equitable Sharing Revenues by The Virginia State Police

Audit Report GR-30-08-003


September 2008
Office of the Inspector General


Executive Summary


The Comprehensive Crime Control Act of 1984 granted the Attorney General the authority to share federally forfeited assets with cooperating local law enforcement agencies.  The purpose of the Asset Forfeiture Program within the Department of Justice (DOJ) is to deter crime by depriving criminals the profits and proceeds of illegal activities and enhance the cooperation between federal, state, and local law enforcement agencies.
The Virginia State Police (VSP) received over $3 million in equitable sharing cash and property to support law enforcement operations during FYs 2005 to 2007.  Our audit found that VSP generally complied with equitable sharing guidelines with respect to accounting for equitable sharing receipts, use of equitably shared property, interest earned on equitable sharing funds, and supplanting.  However, we found weaknesses relating to the tracking of sharing requests and the use of equitable sharing revenues and identified about $80,000 in unallowable equitable sharing fund expenditures.
Our report provides the following three recommendations to the Criminal Division, which oversees the use of equitable sharing funds by recipients. 

Ensure that the VSP updates its electronic tracking log to record the share amount requested and the corresponding amount received.
Ensure that the VSP develops and implements procedures that prevent using equitable sharing funds to pay for current personnel salaries.
Remedy $80,002 in questioned costs due to unallowable salary payments.








Return to OIG Home Page